No.

In the
Supreme Court of the United States

Sealed Appellant,
• Petitioner,
v.
Sealed Appellee,
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
PETITION FOR A WRIT OF CERTIORARI
REDACTED COPY
Christopher Curtis
Assistant Federal Public Defender
Federal Public Defender’s Office
Northern District of Texas
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Chris_Curtis@fd.org

QUESTION PRESENTED
I.

Whether this Court should grant certiorari to determine whether
continued custody under 18 U.S.C. § 4142 for almost four months
beyond the expiration of an order to determine mental
competency violates the Petitioner’s rights under the Due Process
Clause?

ii

PARTIES TO THE PROCEEDING
Sealed Appellant is the petitioner, who was the respondent-appellant below.
The Sealed Appellee is the respondent, and was the. petitioner-appellee in the court
below.

in

TABLE OF CONTENTS
QUESTION PRESENTED

11

iii

PARTIES TO THE PROCEEDING

v

INDEX OF APPENDICES
TABLE OF AUTHORITIES

vi

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTORY AND RULES PROVISIONS

1

LIST OF PROCEEDINGS BELOW

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THIS PETITION

7
12

CONCLUSION.

IV

Index to Appendices
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Order of Commitment from the United States District Court for the
Northern District of Texas

v

Table of Authorities
Page(s)

Cases

vi

PETITION FOR A WRIT OF CERTIORARI
Petitioner seeks a writ of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the Court of Appeals is located within the Federal Appendix at
Sealed Appellee v. Sealed Appellant, 802 F. Appx. 138 (5th Cir,2020) (unpublished).
It is reprinted in Appendix A to this Petition. The district court’s commitment order
is attached as Appendix B.
JURISDICTION
The panel opinion and judgment of the Fifth Circuit were entered on March
10, 2020. On March 19, 2020, this Court extended the 90-day deadline to file a
petition for certiorari to 150 days. This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1),
STATUTORY PROVISIONS
18 U.S.C. § 4241 provides, in part, for the following procedure once a district
court has made a determination that a defendant is incompetent to stand trial:
(d)Determination and Disposition,—If, after the hearing, the court finds
by a preponderance of the evidence that the defendant is presently suffering
from a mental disease or defect rendering him mentally incompetent to the
extent that he is unable to understand the nature and consequences of the
proceedings against him or to assist properly in his defense, the court shall
commit the defendant to the custody of the Attorney General. The Attorney
General shall hospitalize the defendant for treatment in a suitable facility
(1) for such a reasonable period of time, not to exceed four months, as is
necessary to determine whether there is a substantial probability that in the
1

foreseeable future he will attain the capacity to permit the proceedings to go
forward; and
(2) for an additional reasonable period of time until—
(A) his mental condition is so improved that trial may proceed, if the court
finds that there is a substantial probability that within such additional
period of time he will attain the capacity to permit the proceedings to go
forward; or
(B) the pending charges against him are disposed of according to law;
whichever is earlier.
The portion of the mental health statute which allows for the continued
commitment of a person found incompetent to stand trial reads as follows:
§ 4246 Hospitalization of a person due for release but suffering from
a mental disease or defect
(a) Institution of Proceeding.—
If the director of a facility in which a person is hospitalized certifies that a
person in the custody of the Bureau of Prisons whose sentence is about to
expire, or who has been committed to the custody of the Attorney General
pursuant to section 4241(d), or against whom all criminal charges have been
dismissed solely for reasons related to the mental condition of the person, is
presently suffering from a mental disease or defect as a result of which his
release would create a substantial risk of bodily injury to another person or
serious damage to property of another, and that suitable arrangements for
State custody and care of the person are not available, he shall transmit the
certificate to the clerk of the court for the district in which the person is
confined. The clerk shall send a copy of the certificate to the person, and to
the attorney for the Government, and, if the person was committed pursuant
to section 4241(d), to the clerk of the court that ordered the commitment.
The court shall order a hearing to determine whether the person is presently
suffering from a mental disease or defect as a result of which his release
would create a substantial risk of bodily injury to another person or serious
damage to property of another. A certificate filed under this subsection shall
stay the release of the person pending completion of procedures contained in
this section.
2

CONSTITUTIONAL PROVISIONS
The Fifth Amendment to the United States Constitution provides in part:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of
War or public danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation.

3

LIST OF RELATED PROCEEDINGS
1. Sealed Appellant v. Sealed Appellant, 3:17-CR-00200. United States District
Court, Middle District of Tennesse, original criminal charges.

2. Sealed Appellant v. Sealed Appellant, 4:19-CV-0081‘A-1, United States District
Court, Northern District of Texas, petition for mental health commitment,
commitment ordered on March 26, 2019.

3, Sealed Appellee v. Sealed Appellant, CA No. 19-10405, United States Court of
Appeals for the Fifth Circuit. Opinion and judgment affirming the sentence entered
March 10, 2020. Sealed Appellee v. Sealed Appellant, 802 Fed. Appx. 138 (5th Cir.
2020) (unpublished) (See Appendix A) .

4

STATEMENT OF THE CASE
On October 18, 2017, the Petitioner/Respondent/Appellant (Petitioner) was
indicted in the Middle District of Tennessee for one count of assaulting a Special
Agent engaged in the performance of his duties, and one count of resisting or
impeding a Special Agent engaged in the performance of his duties, both counts in
violation of 18 U.S.C. § 111(a). (ROA. 104-105).1 On January 23, 2018, the Petitioner
was apparently committed to the Attorney General pursuant to 18 U.S.C. § 4241 for
a determination of competency. See (ROA.125). Pursuant to this order, the Petitioner
has been housed at Federal Medical Center, Carswell in Fort Worth, Texas
(Carswell) since February 22, 2018. See id. The original commitment expired on May
9, 2018, and nearly two months later, the Government requested an additional four
months to attempt to restore competency. See id. The four-month extension was
granted by the district court and expired on September 9, 2018. See id. On October
1, 2018, the district court in the Middle District of Tennessee entered an order
denying forced medication and continuing the trial from its setting of October 2,
2018. (ROA.139).
On January 28, 2019, the government filed a certificate of dangerousness from
the Warden of Carswell, seeking a mental health commitment, pursuant to 18 U.S.C.
§ 4246. (ROA. 147-149), The government filed a petition for a civil commitment on

1 For the convenience of the Court and the parties, the Petitioner is citing to the page number of the
record on appeal below.

5

January 28, 2019. (ROA.96-102). On January 28, 2019, the district court appointed
the Federal Public Defender to represent Petitioner. (ROA.159).
Based upon the evidence presented at a civil commitment hearing, the
district court found by clear and convincing evidence that the Appellant suffered
from a mental disease or defect, as a result of which her release from custody would
create a substantial risk of bodily injury to another person or serious damage to
property of another. (ROA.16,182-183),
On appeal, the Petitioner raised the issue that it was plain error for the
district court in the Northern District of Texas to move forward with a commitment
proceeding that was not initiated until almost four months after the commitment
order from the Middle District of Tennessee in the pending criminal case had
expired. The Court of Appeals found that, “[ujnder these circumstances, we find the
Appellant has failed to show that the length of her hospitalization during these
proceedings clearly or obviously violated § 4241(d).” Sealed Appellee v. Sealed
Appellant, 802 Fed. Apppx. 138, 143 (5th Cir. 2020) (unpublished).

6

REASONS FOR GRANTING THIS PETITION
I. This Court should grant review to determine whether, under the
plain language of the statute, the Bureau of Prisons was required to release
the Petitioner upon expiration of her commitment to determine
competency to stand trial. Neither the Bureau of Prisons nor the United
States had authority to initiate commitment proceedings almost four
months after the expiration of that term.

A. Authority and discussion
Title 18 U.S.C. 4241(d) provides for the following procedure once a district
court has made the determination that a defendant is incompetent to stand trial:
(d)Determination and Disposition.-If, after the hearing, the court finds by a
preponderance of the evidence that the defendant is presently suffering from
a mental disease or defect rendering him mentally incompetent to the extent
that he is unable to understand the nature and consequences of the
proceedings against him or to assist properly in his defense, the court shall
commit the defendant to the custody of the Attorney General. The Attorney
General shall hospitalize the defendant for treatment in a suitable facility—
(1) for such a reasonable period of time, not to exceed four months, as
is necessary to determine whether there is a substantial probability
that in the foreseeable future he will attain the capacity to permit the
proceedings to go forward; and
(2) for an additional reasonable period of time until—
(A) his mental condition is so improved that trial may proceed, if the
court finds that there is a substantial probability that within such
additional period of time he will attain the capacity to permit the
proceedings to go forward; or
(B) the pending charges against him are disposed of according to law,
whichever is earlier.
18 U.S.G. § 4241(d)
7

On January 23, 2018, the Petitioner was apparently committed to the Attorney
General pursuant to 18 U.S.C. § 4241 for a determination of competency. See
(ROA.125). Pursuant to this order, the Petitioner was housed at Federal Medical
Center, Carswell in Fort Worth, Texas (Carswell) since February 22, 2018. See id.
The commitment expired on May 9, 2018, and nearly two months later, the
Government requested an additional four months to attempt to restore competency.
See id. The four-month extension was granted and expired on September 9, 2018. See
id. It does not appear from the record that the commitment order was extended
beyond September 9, 2018.
However, the government did not seek to implement mental health
commitment proceedings pursuant to 18 U.S.C. § 4146 until January 28, 2019. On
January 28, 2019, the government filed a certificate of dangerousness from the
Warden of Carswell, seeking a mental health commitment, pursuant to 18 U.S.C. §
4246. (ROA. 147-149). The government filed a petition for a civil commitment on
January 28, 2019. (ROA.96-102). On January 28, 2019, the district court appointed
the federal public defender to represent the Petitioner. (ROA. 159). From the record
before us,, the government took no action to initiate a civil proceeding between the
expiration of the commitment order on September 9, 2018, and initiating civil
commitment proceedings on January 28, 2019, a period of almost four months.
There should be no question that the Petitioner in this case was held at FMC
Carswell without authority for almost 4 months past the expiration on September 9,
2018, of the July 11, 2018 order committing her to hospitalization. See United States

8

v. Magassouba, 544 F.3d 387, 410 (2nd Cir. 2008)(“Because §4241(d)(l) is unequivocal
in limiting custodial hospitalization under that subsection to a reasonable period of
time, ‘not to exceed four months,’ we necessarily conclude that the Attorney General
exceeded its authority in holding Magassouba in custodial hospitalization through
May 12, 2005, approximately three weeks longer than the four months specified in
the court’s unopposed order of January 4, 2005.”); See also United States v. Wood, 469
F.2d 676, (5th Cir. 1972),In Magassouba, the defendant was seeking dismissal of the
indictment. The Court of Appeals for the Second Circuit found the unauthorized
custody was harmless in the context of a motion to dismiss the indictment as a remedy
for such error. See id. at 392. In so holding, however, the court in Magassouba, also
stated the following:
We further conclude that the district court did not exceed its authority in
ordering Magassouba’s § 4241(d)(2)(A) commitment for additional custodial
hospitalization and involuntary psychiatric treatment. We agree with the
defendant that § 4241(d) does not permit an incompetent defendant to be held
in uninterrupted custodial hospitalization unless a district court finds before
expiration of a defendant’s initial term of § 4241(d)(1) confinement (which
cannot exceed four months), that circumstances warrant additional
hospitalization pursuant to §4241(d)(2)(A). Thus, when a defendant’s term of §
4241(d)(1) confinement expires and no § 4241(d)(2) order has been entered, the
Attorney General lacks statutory authority to hold a defendant in further
custodial hospitalization.
United States u, Magassouba, 544 F.3d at 392.
In the Petitioner’s case, from the record as it now exists, it does not appear that
the district court for the Middle District of Tennessee extended the Petitioner's
commitment beyond September 9, 2018. The Attorney General was without authority
to hold the Petitioner beyond September 9, 2018, and was without authority to hold

9

her in custody while a certification of dangerousness was finally filed almost four
months later. The Petitioner has been severely harmed by this error in that she has
now been indefinitely committed to the custody of the Attorney General, rather than
returned to the court with original Jurisdiction for the court to determine how to move
forward on the pending criminal charges.
While it appears that some Courts have allowed a reasonable period of time
after the expiration of the four-month period to file .the dangerousness certificate, itis difficult to imagine how a nearly four-month delay could be justified or harmless...
See United States v. Godinez-Ortiz, 563 F.3d 1022, 1030 (9th Cir. 2009).
This error of the Bureau of Prisons holding the Petitioner and filing a
certificate of dangerousness nearly four months after the expiration of the
commitment period resulted directly in an indefinite civil commitment and violates
the Petitioner’s Fifth Amendment Due Process rights. See United States v. Baker, 807
F.3d 1315, 1324 (6th Cir. 1986)(Holding a defendant in custody pursuant to § 4246
without a proper certificate from the Bureau of Prisons violated the defendant’s Fifth
Amendment Due Process rights).
B. Plain Error
Whether a commitment proceeding is authorized is ordinarily a question of
statutory construction reviewed de novo. See Sealed Appellee 1 v. Sealed Appellant 1,
767 F.3d 418, 421 (5th Cir. 2013)(citing United States v. Bonin, 541 F.3d 399, 400
(5th Cir. 2008)). However, the Petitioner did not raise this objection in the trial court.
Therefore, the error must be reviewed under the plain error standard found in

10

Federal Rule of Criminal Procedure 52(b). Reversible plain error consists of 1) error,
2) that is plain or obvious, 3) that affects substantial rights, and 4) that seriously
affects the fairness, integrity, or public reputation of judicial proceedings. United
States v. Jones, 527 U.S. 373, 389 (1999). Moreover, in determining whether error is
plain, “it is enough that the error be plain at the time of appellate consideration.”
Henderson v. United States, 568 U.S. 266, 274 (2013) quoting Johnson v. United
States, 520 U.S. 461, 468 (1997) (“We agree with petitioner on this point, and hold
that in a case such as this - where the law at the time of trial was settled and clearly
contrary to the law at the time of the appeal - it is enough that an error be ‘plain’ at
the time of appellate consideration.”).
1. Error
There should be no question that the continued commitment or confinement of
the Petitioner to FMC Carswell after the expiration of the commitment order on
September 9, 2018, was without authorization. See United States v. Magassouba, 544
F.3d at 410.
2, The error was clear or obvious
The district court in the Middle District of Tennessee noted in its July 11, 2018,
order that the 4-month extension of the commitment order expired on September 9,
2018. The district court also urged the Bureau of Prisons “to complete its evaluation
promptly.” (ROA.125).

11

3. Effecting the substantial rights of the Appellant
As a result of this error, the Appellant, rather than being returned to the
original court to face the criminal charges and a disposition of that case, has been
indefinitely committed to the custody of the Attorney General. Moreover, her liberty
was deprived for four months past the expiration of her commitment order. This was
a violation of her Fifth Amendment Due Process rights. See United States v. Baker,
807 F.3d at 1324.
4. That seriously affects the fairness, integrity, or public
reputation of judicial proceedings.
As a result of the error in the case, the Petitioner has been indefinitely
committed to the custody of the Bureau of Prisons. Realistically, the Petitioner could
spend the rest of her life in FMC Carswell. At best, perhaps someday she might enjoy
a conditional release, which would be equivalent to a term of supervised release for
life.

12

CONCLUSION
Petitioner respectfully submits that this Court should grant certiorari to
review the judgment of the United States Court of Appeals for the Fifth Circuit.
Respectfully submitted this 7th day of August, 2020.
JASON D. HAWKINS
Federal Public Defender
Northern District of Texas
/s/ Christopher A. Curtis
Christopher Curtis
Assistant Federal Public Defender
Federal Public Defender's Office
819 Taylor Street, Room 9A10
Fort Worth, Texas 76102
Telephone: (978) 767-2746
E-mail: Chris_Curtis@fd.org
Attorney for Petitioner

13

